     133/12/213138              10:313         213891 3557                             LOS ANGELES DIG                                      PAGE      133/134
       II~II      lJt:. ' ...,0    UC;   '-u;;a                                                                                                      ".3


\.
                                                 NATIONAL RAlLROAJ) l'ASSENGER CORl'ORArroN
                                                        OI''l,'leE OJ)' INSPECTOR GRNIUML
                                                          OFFICE OF INVESTIGAT{oNS
                                                       INVESl'XGATlVE CLOSING lUi:rORT
                       TIT.LE:                    Thoft           CMH!: NUMDER: 04·99
                       J.)ATEOFRRPORT,            Jan~          ~
                       REl'OR'l' l'Illil'ARED BY: _     SSA and _  SA
                       l,glNDINGS OF I''ACT AND RECOMMENJ)ATIONs.
                       A. FINDI NGS OF rAC'!'

                       I,       Dwing Lead Service Attendant ("LSA") paoket rovioW'J by tho Office
                                                                                                   of Inspector                     G.eiiuiierjo,.
                                                                                  it was detcl1lllned that p3oJ(et~             to II
                                                                                                                                         had
                                                                                                                                who had
                                                                                                     Amh:ak funds for personal gah)"
                  2.         01 fOWld eight (8) sales pacKols belonging to _Ih at contained under reported
                             runollllls totaUufJ $4,210.                                                   sdes

                  3.         or   reportc(! to managemcnt Ulat _                   hod failed   (0   remIt $4,210, and    Aulirak    Issued
                             adminlslllltivu cbarges ag"hlst~l\Y 13,2005.

                 4,         _        \Vag telTlliMted hy Amtrak on July 6,2005 .

                 5.         Amtrak withheld $1,900 in vooalion 'pay from _ final payoheck.
                 6.         0'1 Allgast 31, 2005,01 (Ilferred _             . case 10 lh~. Uniled States Attomey's OfOco.
                 '1.        011 June 1, 7.006, tile UnJted States Atl0l1lcy's Offlce declined prosecu tion o f _

                8,          Ou Octobel' 26,2006, !ho_ State 's Attol1lcy's Office agreed to pursue
                            prosecutioll o f _              WQS incliolcd by the G1'IIIld Jury of the Clrel.it COlut of
                                  COUIlIy 011 Octobor 30, 2006.

                9.                          . 2008,  _was      convicted of 11161\ by a I)len of /!\lilly in the Circuit COUli of
                                                sentenced to one yem' of COllrt supclVision . ._w as olso ordel'tld to pay
                                    ,resltitultion ill 'he RlUOU,,! of$2,300 ..

                10. On .lllllllruy 23. 2008, or xecelvcd a oheck from _ma de payable
                                                                                     to Amtrak for $2,300.
               D, RECOMMENDATIONS

               1. Close case.




               ctosin~      Report Q4·99.dool.
